<html>
<title> - IMPLEMENTING SOLUTIONS: THE IMPORTANCE OF FOLLOWING THROUGH ON GAO AND OIG RECOMMENDATIONS</title>
<body><pre>[Senate Hearing 114-265]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 114-265

               IMPLEMENTING SOLUTIONS: THE IMPORTANCE OF
            FOLLOWING THROUGH ON GAO AND OIG RECOMMENDATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
               REGULATORY AFFAIRS AND FEDERAL MANAGEMENT

                                OF THE

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 10, 2015

                               __________

                   Available via http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs
                        
                        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                          U.S GOVERNMENT PUBLISHING OFFICE
99-903 PDF                      WASHINGTON : 2016                          


________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3354435c73504640475b565f431d505c5e1d">[email&#160;protected]</a>  





        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS


                    RON JOHNSON, Wisconsin, Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                    Keith B. Ashdown, Staff Director
              Gabrielle A. Batkin, Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
                     Laura W. Kilbride, Chief Clerk
                   Benjamin C. Grazda, Hearing Clerk


       SUBCOMMITTEE ON REGULATORY AFFAIRS AND FEDERAL MANAGEMENT

                   JAMES LANKFORD, Oklahoma, Chairman
JOHN MCCAIN, Arizona                 HEIDI HEITKAMP, North Dakota
ROB PORTMAN, Ohio                    JON TESTER, Montana
MICHAEL B. ENZI, Wyoming             CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska
                     John Cuaderess, Staff Director
                  Eric Bursch, Minority Staff Director
                      Rachel Nitsche, Chief Clerk
                            
                            
                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Lankford.............................................     1
    Senator Heitkamp.............................................     2
    Senator Tester...............................................    10
    Senator Ernst................................................    13
    Senator Portman..............................................    22
Prepared statement:
    Senator Lankford.............................................    35
    Senator Heitkamp.............................................    36

                               WITNESSES
                      Thursday, December 10, 2015

Hon. Gene L. Dodaro, Comptroller General of the U.S., U.S. 
  Government Accountability Office...............................     5
Hon. Michael E. Horowitz, Inspector General, U.S. Department of 
  Justice, and Chair, Council of the Inspectors General on 
  Integrity and Efficiency.......................................     6
Jim H. Crumpacker, Director, Departmental GAO-OIG Liaison Office, 
  U.S. Department of Homeland Security...........................     8

                     Alphabetical List of Witnesses

Crumpacker, Jim H.:
    Testimony....................................................     8
    Prepared statement...........................................    84
Dodaro, Hon. Gene L.:
    Testimony....................................................     5
    Prepared statement...........................................    38
Horowitz, Hon. Michael E.:
    Testimony....................................................     6
    Prepared statement...........................................    77

                                APPENDIX

Mr. Crumpacker response to Senator Lankford's question...........    95
Mr. Dodaro response to Senator Lankford's question...............    98
Graph referenced by Senator Tester...............................   101
Statemensts submitted for the Record from:
    The Mercatus Center, George Mason University.................   102
    Congressional Research Service...............................   109
Audit process chart..............................................   126
    Deloitte Services............................................   127
Responses to post-hearing questions for the Record:
    Mr. Dodaro...................................................   155
    Mr. Horowitz.................................................   169
    Mr. Crumpacker...............................................   176

 
                        IMPLEMENTING SOLUTIONS:
   THE IMPORTANCE OF FOLLOWING THROUGH ON GAO AND OIG RECOMMENDATIONS

                              ----------                              


                      THURSDAY, DECEMBER 10, 2015

                                 U.S. Senate,      
                        Subcommittee on Regulatory,        
                      Affairs and Federal Management,      
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:02 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. James 
Lankford, Chairman of the Subcommittee, presiding.
    Present: Senators Lankford, Portman, Ernst, Sasse, 
Heitkamp, and Tester.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Good morning, everyone. I would like to 
welcome you to today's Subcommittee hearing that will focus on 
the recommendations made by the Government Accountability 
Office (GAO) and the Inspectors General (IG) to improve 
government efficiency.
    We all want a Federal Government that serves the American 
people in the most effective and efficient way. The Government 
Accountability Office and agencies' Inspectors General are on 
the front lines in combating waste, fraud, and mismanagement 
within the Government. Their audits and investigations are 
vital in uncovering and eliminating the billions of waste and 
mismanagement of taxpayer dollars.
    Through reports, recommendations, and their High-Risk List, 
GAO serves Congress and the public by conducting oversight of 
how Federal dollars are spent. The mission is particularly 
vital today as we face a Federal debt approaching $19 trillion. 
Last year, GAO saved the taxpayers a record $74.7 billion, 
bringing their total to over a half a trillion dollars saved 
since 2003.
    Despite these important and impressive results, agencies 
consistently fail to implement roughly 20 percent of what GAO 
recommends each year.
    While GAO looks for waste across government, Inspectors 
General are uniquely positioned to focus on and work within 
their respective agency and play a critical role in 
congressional oversight. IG recommendations also have the 
potential to save significant taxpayer dollars, but there are 
709 unimplemented recommendations at the Department of Justice 
(DOJ) alone.
    I recently published a report titled ``Federal Fumbles'' 
that described 100 examples of wasteful spending and burdensome 
regulations while also proposing solutions to each of these 
problems. I relied extensively on GAO and IG recommendations 
for this report and acknowledge that this report sheds light on 
only a small fraction of the waste that GAO and IGs identify 
every year.
    When looking at this issue, it is important to remember 
that this is not an adversarial conversation. Creating a 
responsible, efficient government is something we all can and 
should agree on, and I find many Federal employees that 
struggle with the waste that they clearly see every day in 
their agencies and look for ways and outside accountability to 
be able to help them solve it. It is important for Congress to 
take an active role and ensure that the GAO, IGs, and agencies 
work together to eliminate waste and mismanagement, and I look 
forward to this conversation today.
    With that, I would like to recognize Ranking Member 
Heitkamp for her opening remarks.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Chairman Lankford, and thank 
you, all of you, for your service and for agreeing to come here 
during the holiday season. We really appreciate it. This has 
been an incredibly active Subcommittee, probably the most 
active Subcommittee in all of the Senate, because this is a 
Committee where we come to talk about how we can do things 
better. And if anyone thinks you cannot do things better, they 
are wrong. Nobody is perfect. We have to constantly be 
striving.
    The Federal Government spends hundreds of millions of 
dollars annually to have Federal programs audited and 
investigated by the Government Accountability Office and the 
Offices of Inspectors General (OIGs). The GAO and IGs spend 
their days providing incredibly valuable recommendations on how 
the Federal Government can be more effective and efficient with 
those sacred taxpayer dollars.
    This type of oversight is critical and valuable. The 
American people can be sure that their taxpayer dollars are 
being used wisely when agencies like GAO and IG recommendations 
are taken seriously and that we use these recommendations to 
make government more efficient and better.
    Our hearing today is about learning more about how we can 
improve agency follow up and make sure that everyone is doing 
their part in assessing and improving recommendations and 
recommendation follow up. The work that GAO and Inspectors 
General perform in providing recommendations to agencies is 
important, and the recommendations should not go unimplemented 
or unnecessarily delayed.
    I want to just point out one of the topics I want to cover 
today, and as you can see from the Audit Process over to the 
side, on the chart\1\ on the left, a great deal of planning and 
many hours of work go into the auditing process by GAO and IGs. 
We want to make sure that that the hard work does not go 
unnoticed, unappreciated, and certainly unimplemented.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Heitkamp appears in the 
Appendix on page 125.
---------------------------------------------------------------------------
    But I want to also draw your attention to the lower left-
hand side. You will see GAO's work on monitoring and 
implementation of recommendations. Over the years, GAO has 
taken a number of steps to increase oversight of whether their 
recommendations have been implemented. The GAO maintains an 
online database of open recommendations that still need to be 
addressed by agencies. And according to GAO's website, the goal 
of the recommendation database is to ``help congressional and 
agency leaders prepare for appropriations and oversight 
activities, as well as help improve government operations.'' 
Because of this database of open recommendations, we know that 
there are almost 4,600 open recommendations with Federal 
agencies. This is a huge number, and it is not insignificant. I 
hope we can discuss today how we can lower that number, move 
forward and give you the tools to continue to do your excellent 
work.
    I also want you to take a look at the other side of the 
chart when we look at the recommendations that Inspectors 
General provide. They operate differently than GAO. It is a 
little more challenging for us as decisionmakers here to know 
how Federal agencies are responding to Inspector General 
recommendations. The information is not as transparent as what 
it is at GAO. And while the IGs are required by law to provide 
a semiannual report to Congress tracking audit recommendation 
implementation, each IG has their own system for tracking those 
recommendations.
    IGs do not maintain a centralized database in which all 
outstanding recommendations governmentwide are input, stored, 
and accessible to Members of Congress and the public. While we 
know there are IGs doing terrific work, great work, we need to 
know about that follow up, and we need to see if we have 
inconsistencies across agencies.
    Every agency operates differently, but a lot of these 
recommendations, I would assume, are fairly consistent across 
the board. So it is not just Congress that would win with 
having a more open process regarding IG recommendations, but 
other IGs, taking a look at the work that is being done by 
their colleagues.
    Today's hearing is about learning the recommendation follow 
up practices that work for agencies and figuring out how we can 
do more, how we can reduce those numbers of recommendations 
that are not implemented. We are not here, as you know, in this 
Committee to place blame. This is the good government 
Committee, and everybody should be for good government. There 
is no controversy about this. I think just as you are very 
nonpartisan--not bipartisan but nonpartisan--this Committee has 
been very nonpartisan in how we evaluate and look at some of 
these challenges of inefficient government.
    And so I want to thank Chairman Lankford for his excellent 
leadership, and we look forward to hearing this testimony and 
having an ongoing dialogue this morning.
    Senator Lankford. Thank you, Senator.
    At this time we will proceed with testimony from our 
witnesses. Let me introduce our three witnesses. Then we will 
swear each in.
    Mr. Gene Dodaro is the Comptroller of the United States. He 
is the head of the Government Accountability Office. As 
Comptroller General, Mr. Dodaro helps oversee the development 
and issuance of hundreds of reports and testimonies each year 
to various committees and individual Members of Congress. These 
and other GAO products have led to hearings, legislation, 
billions of dollars in taxpayer savings, and improvements to a 
wide range of government programs and services.
    Mr. Dodaro, how many hearings do you think you have 
testified before?
    Mr. Dodaro. At least 150.
    Senator Lankford. That is impressive just to survive that. 
[Laughter.]
    Mr. Michael Horowitz is the Chair of the Council of the 
Inspectors General on Integrity and Efficiency (CIGIE), and the 
Inspector General for the Department of Justice. As Inspector 
General, he oversees a nationwide workforce of more than 400 
special agents, auditors and inspectors, attorneys, and support 
staff whose mission is to detect and deter waste, fraud, and 
misconduct in DOJ programs and personnel and to promote economy 
and efficiency in Department operations. Thank you again. You 
have also been on this Hill quite a few times giving testimony. 
We thank you for your service in that.
    Mr. Jim Crumpacker is the Director of the Departmental GAO-
OIG Liaison Office within the Department of Homeland Security 
(DHS). In this capacity, he serves as the executive management 
official responsible for maintaining mutually beneficial and 
productive relations within the U.S. Government Accountability 
Office and the DHS Office of the Inspector General. He also 
functions as a key adviser to senior DHS leadership, including 
the Secretary and Deputy Secretary.
    I would like to also note that Mr. Crumpacker also served 
with the U.S. Air Force (USAF), both active duty and reserve 
officer, retiring as a colonel after 29 years. Thank you, 
Colonel Crumpacker, for that and for your continued service.
    I would like to thank all of our witnesses and I would like 
to ask you to rise. It is the custom of this Subcommittee to 
swear in all witnesses that appear before us. Would you please 
raise your right hand? Do you swear that the testimony you are 
about to give before this Subcommittee will be the truth, the 
whole truth, and nothing but the truth, so help you, God?
    Mr. Dodaro. I do.
    Mr. Horowitz. I do.
    Mr. Crumpacker. I do.
    Senator Lankford. Thank you. You may be seated.
    Let the record reflect the witnesses all answered in the 
affirmative.
    We will be using a timer system in front of you. Most of 
you are very familiar with that. As you know, your written 
testimony is a part of the permanent record. Anything you would 
like to add to that in your oral testimony, we will be glad to 
be able to receive.
    Mr. Dodaro, since you are a rookie at this, we will take 
you first. [Laughter.]

   TESTIMONY OF THE HONORABLE GENE L. DODARO,\1\ COMPTROLLER 
 GENERAL OF THE UNITED STATES, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Dodaro. Thank you, Mr. Chairman. Good morning to you, 
Ranking Member Senator Heitkamp, Senator Tester. I appreciate 
the opportunity to be here today to talk about GAO's work.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dodaro appears in the Appendix on 
page 38.
---------------------------------------------------------------------------
    Our mission is to support the Congress in carrying out its 
responsibilities, but also to help improve the performance and 
ensure the accountability of the Federal Government for the 
benefit of the American people.
    One of the chief ways that we do this is to make 
recommendations to improve government operations and 
activities. On average, we issue about 1,800 recommendations 
each year. As has been noted in your opening statement, Mr. 
Chairman, about 80 percent of our recommendations on average 
are implemented within a 4-year period of time.
    The recommendations that are implemented have tremendous 
benefits to the government. Mr. Chairman, you mentioned that 
last year our recommendations resulted in over $74 billion in 
financial benefits to the government. That is a $134 return for 
every $1 invested in GAO.
    The Bipartisan Budget Act that just passed this year, 
covering fiscal years (FY) 2016 and 2017, for example, had over 
$30 billion in offsets to help avoid sequestration as a result 
of implementing GAO's recommendations. So both cost savings and 
revenue enhancements are always on our mind, and we are trying 
to press that.
    But there are thousands of other benefits that occur as a 
result of implementation of our recommendations. There are 
enhanced services to veterans, children, the elderly. There are 
improvements in public safety and security. There is 
strengthening of our homeland security and national defense 
operations. There is bolstering of our cyber defenses as a 
result of implementing our recommendations, and a wide range of 
program improvements across the full spectrum of the Federal 
Government's programs and activities. So we are very proud of 
that record.
    Now, as you mentioned, Senator Heitkamp, there are a lot of 
open recommendations. There are over 4,600 for the 24 major 
Chief Financial Officers (CFO) Act agencies, and if you 
include, the Office of Management and Budget (OMB) and a wide 
range of smaller agencies, there are another 1,000 that are 
outstanding. So there is a lot of work to be done. 
Implementation of these open recommendations can result in tens 
of billions of dollars in additional savings and can result in 
improved program operations and help the Federal Government 
carry out its services to citizens across the country more 
efficiently.
    Now, in order to encourage implementing our 
recommendations, we carry out a wide variety of activities, and 
I will highlight some of them, given your interest in follow 
up. We start with the audit process. During the audit process 
itself, if we have recommendations for agencies to take action 
right away, we encourage that, and that happens on occasion.
    We provide draft reports to agencies for comment, and 
include their comments on whether they agree with the 
recommendations that we are proposing. And, by and large, 
agencies agree with many of our recommendations.
    One important point I would make is that for most of the 
open recommendations, agencies have agreed to implement them. 
They just have not executed and implemented them yet.
    Then 60 days after GAO issues a report, by law, the 
agencies have to provide a report to the Congress about their 
response to our recommendations, and that follow up process has 
been in place now for about 40 years. I would like to take a 
look at it and make sure it is best serving the needs of the 
Congress, particularly in the current budget environment. We 
will be doing a reexamination of that process to assure it is 
used effectively.
    And then we follow up on our recommendations to agencies at 
least once a year. Also, I meet on a regular basis with the 
Deputy Director for Management at OMB and the heads of major 
departments and agencies about implementing recommendations 
related to the high-risk areas we identified. We issue the 
overlap and duplication report each year. That includes a 
scorecard for the recommendations implemented by the Executive 
Branch as well as recommendations we have made to the Congress. 
We can expand that and do more in order to show the overall 
number of recommendations we have for the Congress. Right now 
we have close to 200 open recommendations to the Congress. 
About a third of them are the ones we report in the overlap, 
duplication, and fragmentation report.
    We are very focused on this. One of the reasons you see an 
elaborate process, Senator Heitkamp, as you pointed out, is 
that we judge our performance not on how many reports we issue 
or how many recommendations we make, but how many are 
implemented and what kind of benefits we have brought to the 
Federal Government as a result of the investment that all of 
you make in the GAO each year.
    So, again, thank you for the opportunity to be here today, 
and I would be happy to answer any of your questions.
    Senator Lankford. Thank you. Mr. Horowitz.

 TESTIMONY OF THE HONORABLE MICHAEL E. HOROWITZ,\1\ INSPECTOR 
GENERAL, U.S. DEPARTMENT OF JUSTICE, AND CHAIR, COUNCIL OF THE 
         INSPECTORS GENERAL ON INTEGRITY AND EFFICIENCY

    Mr. Horowitz. Thank you, Mr. Chairman, Senator Heitkamp, 
Members of the Subcommittee. Thank you for inviting me to 
testify at this important hearing today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Horowitz appears in the Appendix 
on page 77.
---------------------------------------------------------------------------
    The Federal Inspector General community issues thousands of 
recommendations each year that help make our government more 
effective and efficient and reduce waste, fraud, and abuse in 
government programs. One of the many important responsibilities 
that IGs have is to ensure that agencies are implementing those 
recommendations and that identified cost findings are remedied.
    To remain vigilant in this effort, OIGs maintain 
information about unimplemented recommendations, analyze agency 
efforts to close those recommendations, and request and respond 
to agency status updates. In addition, we issue semiannual 
reports that include information identifying significant 
recommendations for which corrective action has not been 
completed.
    At my office at the DOJ OIG, we have developed a robust 
process to follow up and ensure implementation on our 
recommendations. Where the Department has agreed with an OIG 
recommendation, which is almost always the case, the Department 
will seek to demonstrate to us how it has addressed the 
concerns we have identified that gave rise to the 
recommendation. We only close a recommendation after we conduct 
an independent analysis on that information and we determine 
that sufficient actions have been taken to close the 
recommendation. For those that remain unimplemented, the 
Department must provide us with periodic status reports on how 
they are proceeding toward closing that recommendation.
    In those rare instances where the Department does not agree 
with an OIG recommendation, we undertake an accelerated 
resolution process. If no agreement is reached with the 
Department within 6 months, we then elevate that to the 
leadership of the Department, and we report it to Congress in 
our semiannual report so that there is transparency around that 
kind of an issue.
    In addition, every 6 months we provide to the Department's 
leadership and Congress a report on unimplemented OIG 
recommendations. That is something that we began within the 
last 2 years in an effort to reduce the number of open 
recommendations in the Department and to elevate it to a higher 
level and ensure there was high-level oversight. That has 
proven to be very effective.
    We have had the Deputy Attorney General and her staff 
follow up on those recommendations and see action with the 
Department components as a result. We have appreciated the 
leadership's support for the process, and having them involved, 
having leadership involved, has proven to be beneficial.
    In addition, the Department's leadership just implemented 
this month a new system that will utilize Justice Management 
Division auditors to track unimplemented recommendations and to 
work with Department components to make the changes necessary 
to implement them, and we are hopeful that that new process 
will further move us toward closing more and more 
recommendations in a timely fashion.
    In a further effort to ensure that our recommendations are 
implemented, we often conduct follow up reviews to assess 
compliance. We are in the middle of one on the Fast and Furious 
recommendations, for example. Additionally, we will often issue 
in the course of our reviews and audits interim reports or 
Management Advisory Memoranda where we see issues that require 
immediate action. And as Gene said, one of the things we 
frequently do is inform the Department as we are learning about 
information of problems we find so they can take immediate 
action to resolve the problems.
    We also try and take proactive steps to address issues. We, 
of course, as every IG does, issue Top Management and 
Performance Challenges that summarize the issues we have seen 
in the past and we foresee in the future that the Department 
should be looking at.
    We have also engaged, as an example, in our grant fraud and 
grant oversight work in an interagency process and created a 
working group that brings together IGs and various Department 
components--OMB is involved as well--trying to identify 
challenges associated with administering grant programs. That 
group has pulled together documents and recommendations about 
improving grant administration and how to improve internal 
controls in that regard. My office separately has issued 
guidance in that area as well, all in an effort to increase and 
promote proactively increased effectiveness in our oversight 
efforts.
    We are committed to working as a community to implement 
corrective actions that improve the effectiveness and 
efficiency of the government, and we appreciate this Committee 
and the Congress' bipartisan support for those efforts, and we 
look forward to working with you and the agencies to further 
that process.
    Thank you.
    Senator Lankford. Colonel Crumpacker.

 TESTIMONY OF JIM H. CRUMPACKER,\1\ DIRECTOR, DEPARTMENTAL GAO-
    OIG LIAISON OFFICE, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Crumpacker. Good morning, Chairman Lankford, Ranking 
Member Heitkamp, and distinguished Members of the Subcommittee. 
I appreciate the opportunity to appear before you today to 
discuss the Department of Homeland Security's interactions with 
the Government Accountability Office and our Office of 
Inspector General. I am the career executive management 
official responsible for maintaining mutually beneficial and 
productive relations with GAO and the OIG. Previously, I held 
leadership positions within the Offices of Inspector General at 
the Department of Transportation (DOT) and the U.S. Postal 
Service (USPS) and with the Air Force Audit Agency. I am also a 
certified internal auditor and a certified fraud examiner.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Crumpacker appears in the 
Appendix on page 84.
---------------------------------------------------------------------------
    Today I am proud to say that the Department's relations 
with GAO and the DHS OIG have never been stronger or healthier. 
This is attributable to sustained senior leadership commitments 
from multiple Secretaries, Deputy Secretaries, General 
Counsels, and Under Secretaries of Management to having open 
and transparent relations with our auditors. In turn, this has 
resulted in a changed culture across DHS from one in which 
audits were generally viewed as unimportant to one where 
leadership, program officials, and others at all organizational 
levels now understand that audits are important and deserve an 
appropriate level of attention among competing priorities and 
demands in protecting the homeland.
    In addition, continuous senior leadership focus sustaining 
this change has been dependent on strengthening and improving 
the Departmental GAO OIG Liaison Office and our DHS-wide audit 
liaison community.
    My office is responsible for facilitating successful 
outcomes for everyone involved in the process, including 
activities related to auditor access to records and employees, 
tracking the resolution and closure of recommendations, and 
supporting and providing oversight of component audit liaison 
activities throughout the Department.
    Within each component, we also have a senior component 
accountable official responsible for GAO and OIG activities 
that works with my office. Our overriding goals are to ensure 
that all parties that need to be involved in audits are 
involved; that audits are worked in concert with our operating 
principles of engagement, responsiveness, and mutual respect; 
that audit issues are worked at the lowest organizational level 
possible and only elevated to more senior leadership when 
absolutely necessary; and that there are no surprises for 
anyone at the end of the process.
    We work collaboratively and as partners with our auditors 
while respecting their independence. For our employees, we 
start with clear expectations regarding interactions with 
auditors. DHS has a formal administrative policy issued in 2010 
that acknowledges the important role GAO has and serves as a 
foundation of the Department's commitment to fully cooperating 
with GAO in its reviews consistent with well-established 
Executive Branch privileges and responsibilities.
    Expectations for cooperating with the OIG were reaffirmed 
in a memorandum that Secretary Johnson sent to all DHS 
employees in May 2014, updating similar guidance that former 
Secretary Chertoff issued in 2008.
    DHS has also instituted a number of formal processes to 
ensure it works collaboratively with auditors and, in turn, 
effectively resolves and implements audit findings and 
recommendations.
    For example, DHS has documented formal performance measures 
and goals for program offices to submit corrective action 
plans, perform quarterly reporting on these actions, and strive 
to close recommendations within 24 months. The current status 
of these measures and goals is briefed to the Deputy Secretary 
and other senior leaders on a bimonthly basis.
    DHS has also increased the standardization of its responses 
provided for draft GAO and OIG audit reports. Today a signed 
letter or memorandum is provided to the auditors for all 
reports having recommendations to the Department. This 
previously did not always happen.
    DHS firmly believes that following through on GAO and OIG 
recommendations is an integral part of good management and 
essential to improving the effectiveness and efficiency of our 
programs, operations, and activities. We appreciate the GAO and 
OIG's understanding that this is a shared responsibility 
between management officials and auditors.
    Examples of a few of our successes include: closing more 
GAO and OIG audit recommendations than auditors have issued for 
the fifth year in a row; and steadily reducing the number of 
open DHS OIG recommendations by 65 percent, from a high of 
1,663 at the end of fiscal year 2011 to just 583 at the end of 
fiscal year 2015.
    DHS is in a very different place than it was just a few 
years ago with its GAO and OIG relationships. This not only 
includes the openness and transparency with which we work with 
our auditors and a significantly lower number of open 
recommendations, but also our institutional attitude toward 
oversight. We are committed to continuing improvements.
    Thank you for the opportunity to appear before you today. I 
would be pleased to address any questions the Committee may 
have.
    Senator Lankford. Thank you all three gentlemen.
    Senator Heitkamp and I are going to defer our questions to 
the end. I recognize Senator Tester for questions.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Thank you, Chairman Lankford. I appreciate 
the hospitality, and, Ranking Member Heitkamp, the same. And 
thank you for your testimony. It is always good to see you, 
Gene. Michael, Jim, I do not know if we have had the 
opportunity to work together much, but we look forward to it 
this morning.
    This is the way I understand it, Gene: You issue a report. 
The agency has 60 days to return what they have done to address 
what you have pointed out. That is correct?
    Mr. Dodaro. That is correct. But they also have an 
opportunity when we give them the draft report to comment as to 
whether they want to agree with the recommendation and to say 
what they are planning to do. Then there is the letter agencies 
write 60 days after the final report is issued. So there are 
two windows.
    Senator Tester. And in that 60 days, that report goes to 
you, right, Jim, the report of what the agency has done?
    Mr. Crumpacker. No, sir. That is a letter that we sent to 
OMB and Congress with a copy to GAO. It is 60 days after we 
receive a copy of GAO's final report, 60 days from the date we 
receive that final report.
    Senator Tester. OK. Let me get to the crux of my--and maybe 
I am wrong on this, but it is my understanding that this 
Committee--and I do not have a problem with that--gets the 
update on what the agency has done. Is that correct?
    Mr. Dodaro. That is correct.
    Senator Tester. OK. So I also serve on Veterans' Affairs, 
which is an authorizing committee, and all of us serve on 
authorizing committees here. When does the authorizing 
committee get the results of that?
    Mr. Dodaro. I believe they are supposed to get it within 
the 60-day window as well.
    Senator Tester. Simultaneously?
    Mr. Dodaro. Yes.
    Senator Tester. Good. Solve that problem. Thank you.
    Mr. Dodaro. But I do think, Senator, that process has been 
in place for about 40 years right now, and I want to take a 
look at it. We are going to reexamine whether it is serving the 
needs of the Congress. So we are going to look at that, and we 
will give you the results of any suggestions we have for 
improving it.
    Senator Tester. OK. This is for you, Gene, and Michael. Do 
you have the resources you need to do your job?
    Mr. Dodaro. We are not at the optimum level I believe GAO 
needs to be.
    Senator Tester. How short are you?
    Mr. Dodaro. We do not have an appropriation for this year 
yet, but I am hopeful it will be sufficient. I mentioned to the 
appropriators I believe GAO's optimal level should be 3,250 
people. Last year, we were slightly under 3,000. So, we are 
close, but we are not where we need to be.
    Senator Tester. OK. Michael.
    Mr. Horowitz. We have the same issue. We have asked for 
slightly increased funding to cover some of the additional 
challenges we face. We are waiting to see what happens through 
the appropriations process.
    Senator Tester. OK. That sounds like you are about 10 
percent short, Gene, by the numbers you gave?
    Mr. Dodaro. Correct.
    Senator Tester. About the same thing with you, Michael?
    Mr. Horowitz. Correct.
    Senator Tester. OK. That is fine.
    Are both of you given the access within the agencies that 
you need to be able to conduct the studies that you need to 
conduct?
    Mr. Horowitz. We have had a number of issues over the last 
5 years, and in light of the Office of Legal Counsel opinion 
from July, the answer is that problem continues. The Department 
has tried to address it by setting up a process, but it is a 
non-independent process, and what we need is the IG Empowerment 
Act that this Committee has moved on to get through so that we 
can get that access again that we need.
    Senator Tester. How about you, Gene?
    Mr. Dodaro. Yes, we generally get the access that we need, 
although in some cases, I have to get involved and elevate it 
to the department head or get assistance from the Congress. But 
we are in pretty good shape.
    There is one area, though, where Congress could be very 
helpful. That is on the National Directory of New Hires that 
the Department of Health and Human Services (HHS) maintains. 
Their interpretation of the law is that they are prevented from 
sharing that information with us. We do not agree with that 
legal interpretation. Access to it would make a significant 
advancement in our ability to identify improper payments across 
the government and help solve that problem. We have asked the 
Congress to confirm our access to that information.
    Senator Tester. Is there a bill to do that?
    Mr. Dodaro. I have been trying for three Congresses now to 
get this through.
    Senator Tester. Senator Heitkamp will take care of that. 
[Laughter.]
    Mr. Dodaro. I am counting on it.
    Senator Tester. Michael, how many IG recommendations to 
agencies are out there currently?
    Mr. Horowitz. I do not know the total number across all 72 
IGs. In DOJ OIG, just about 700 is the number. That is down 
from about 800 2 or 3 years ago when we started the process, as 
I mentioned in my statement.
    Senator Tester. Is that a reasonable number? Is that 
something we should be concerned about? Or is it that----
    Mr. Horowitz. I think if you look at our aging report, on 
the internal side it is a reasonable number with the follow up 
that has occurred recently. We have currently over the last 3 
years about 84 percent of our recommendations closed, so that 
is a pretty good number. The ones that linger longer tend to be 
the external grant-related reports, and that is where we need 
more vigilance, I think, generally.
    Senator Tester. OK. And excuse me for running a little bit 
over, but this graph\1\--and I do not know who put this out. 
Maybe it was you, Mr. Chairman. Maybe it was the GAO. This 
graph shows the number of open recommendations, and it is 
amazing to me that the Department of Defense (DOD) has over two 
times as many as the next highest agency. And I know that there 
has never been an audit done on the Department of Defense. What 
is going on here, Gene? Can you tell me what--I mean, is it 
they just do not want to respond? Are they balking? Tell me 
what is going on.
---------------------------------------------------------------------------
    \1\ The graph referenced by Senator Tester appears in the Appendix 
on page 101.
---------------------------------------------------------------------------
    Mr. Dodaro. Yes, well, the Defense Department spends 
roughly half of all the discretionary spending in the Federal 
Government, so commensurate with that, we do a lot of audit 
work there. They have one of the lowest response rates of 
implementing our recommendations. They are more in the 70-
percent range rather than the 80-percent range.
    Part of the issue is that we find lots of problems at DOD. 
One-quarter of our High-Risk List focuses on, the Department of 
Defense and its business practices, and it is very difficult to 
get these issues addressed. One of the reasons is it requires 
multiple components of the Defense Department to work together.
    Many of our recommendations on overlap, fragmentation, and 
duplication are for issues within the Defense Department. So it 
is a large operation.
    Senator Tester. But that is not an excuse.
    Mr. Dodaro. Well, I agree with that. I have sent letters 
recently to the heads of all major departments and agencies 
listing the total number of open recommendations and 
prioritizing which ones that I think require their personal 
attention. I have not yet received a response from the Defense 
Department. I have from other agencies.
    Senator Tester. When did you send that out?
    Mr. Dodaro. I am going to follow up with them.
    Senator Tester. When did you send that out to the 
departments?
    Mr. Dodaro. The Defense one, in August.
    Senator Tester. And no response?
    Mr. Dodaro. Not yet, other than that they are working on 
it.
    Senator Tester. OK. Well, I would just say that I think 
this should be concerning to everybody on the Committee, and I 
thank the Chairman for putting that chart in front of us. There 
is no doubt we are very proud of our military, but we need to 
make sure that we are not wasting dough.
    Mr. Dodaro. Right.
    Senator Tester. Thank you, guys. I thank all of you for 
what you do. I appreciate your service.
    Senator Lankford. Before we move to Senator Ernst, can I 
ask one quick clarification as well? You had mentioned this new 
hire database access for HHS. Can you give us greater clarity 
to that? What is missing and what you do not have access to?
    Mr. Dodaro. Yes, this database was set up for child 
enforcement purpose for HHS, so it has all the current 
information on wage earnings by people across the country. We 
could use it for comparison purposes with programs within the 
Federal Government, that have eligibility criteria based on 
income levels. We find that that information is more current 
than anything else the Federal Government has. So if we cannot 
use that information to determine eligibility for means-tested 
Federal programs it limits our ability to address the high 
level of improper payments. We want to go in and match that 
database to eligibility decisions that agencies made for 
programs where there is an income eligibility determination.
    Now, we have obtained some of the data in the past, but we 
had to go to all 50 States to collect the information from the 
individual States because HHS would not provide it. It is not 
efficient. It takes a large amount of resources. There was a 
time when the Department was advising States not to cooperate 
with us.
    Senator Lankford. So HHS has said you do not have access to 
it because?
    Mr. Dodaro. Well, in the law it says they are not to 
provide it to anybody other than specified agencies, and we do 
not think that Congress intended for that to mean not to give 
it to GAO. So we disagree with them on the legal 
interpretation, but we are stuck right now.
    Senator Lankford. All right. Thank you. Senator Ernst.

               OPENING STATEMENT OF SENATOR ERNST

    Senator Ernst. Thank you, Mr. Chairman and Ranking Member 
Heitkamp. I appreciate it.
    Thank you, gentlemen, for being here today. Your input is 
always very valuable to us, so I appreciate the time that you 
take.
    Mr. Dodaro, in 2015 you added VA Health Care to your High-
Risk List, citing concerns about the VA's ability to ensure the 
timeliness, cost-effectiveness, quality, and safety of the 
health care the Department provides in a number of different 
areas. You mentioned that there are more than 100 GAO 
recommendations that have not been addressed by the agency, 
which is very concerning.
    Approximately one year later from when this report was 
released, can you tell us where the VA is on implementing some 
of these recommendations and how they are coming on their high-
risk progress with that rating? And has there been what you 
would call significant progress made from the beginning of the 
year until now?
    Mr. Dodaro. Thank you, Senator Ernst. There has not been 
significant progress. I am very disappointed that we have not 
seen a very good corrective action plan from VA to address the 
high-risk areas.
    Now, I know there are other assessments that have been made 
and set in law by the Veterans Choice Act in terms of the 
commission on care and an independent technical assessment. So 
they are receiving a lot of different recommendations.
    But I have been concerned. In fact, I have asked for a 
meeting with the Secretary. I am meeting with him tomorrow.
    Senator Ernst. Very Good.
    Mr. Dodaro. We have a scheduled meeting to talk about the 
fact that I do not think they have a good plan. They have not 
made significant progress. A number of our recommendations 
overlap those of or are consistent with ones from these 
independent assessments that are being done now by other 
parties. So I think they need an integrated plan to address our 
concerns and those expressed by the IG and by others. And I 
have some ideas on how they could do that that I want to talk 
to the Secretary about. But I am concerned.
    Senator Ernst. OK. Thank you. I appreciate that honest and 
very straightforward response, because so many of us want to be 
great supporters of the VA, but we cannot right now because 
they are not providing the necessary services for our veterans. 
And so we need to continue talking about this. It is important. 
But more than talk, we need to make sure that the VA is 
actually following up, and if there is a way that we can assist 
with that, we need to make sure we are doing that.
    Mr. Dodaro. I will keep this Committee posted on our 
progress.
    Senator Ernst. OK. Thank you. I appreciate it.
    Also, following up with that, too, I cosponsored Senators 
Ayotte and Manchin's Duplication Elimination Act, which would 
require the President to submit to Congress a proposed joint 
resolution implementing recommendations outlined in your annual 
report on duplication. It also includes procedures for 
expedited consideration of the joint resolution in Congress, 
and I would just like to know what your thoughts are on that 
particular piece of legislation. We have seen that these 
Federal agencies have fully implemented only 36 percent of the 
recommendations, and I really think it is time that Congress 
starts holding someone responsible. So if you could just maybe 
talk a little bit about the legislation and what your thoughts 
are.
    Mr. Dodaro. I think it is a very good legislative 
initiative. I am supportive of it. I think it is necessary 
because many of our recommendations involve overlap and 
duplication among or between agencies across the Federal 
Government. Most of the 36 percent that have been implemented 
have been implemented where it involves one agency and they 
could take action. So you need leadership on the part of OMB 
and the President to work with multiple agencies and come up 
with an administration position on our recommendations. And 
this legislation would require that. I think that is fair. They 
either agree or they do not agree, or they are going to 
implement it or not. And then the Congress can take action on 
those areas.
    And it also helps where you have multiple congressional 
jurisdictions over some of these issues, too. I have advocated 
joint hearings in some of the committees. So you have, both 
within the Executive Branch and the Congress multiple parties 
that have to agree in order to implement our recommendations.
    Senator Ernst. Well, good. I appreciate that. And it goes 
to Senator Tester's point as well with the DOD. There is so 
much duplication within the DOD, and I think that we do need to 
hold people accountable and streamline and find efficiencies 
where we can. So thank you, gentlemen, for being here. Again, 
thank you very much. I appreciate that.
    Thank you.
    Senator Lankford. Senator Heitkamp.
    Senator Heitkamp. Thank you, Mr. Chairman, and thanks for 
holding this hearing.
    I want to get back to kind of collaboration, and I think, 
Gene, I have been asking you repeatedly whether it would be a 
good idea to prioritize recommendations. Let us say there is 
limited resources within the agency, kind of big bang for the 
buck. I failed to write this down, but I think you said for 
every dollar invested in GAO, you return over $130 in savings, 
right? Was it $135, Gene?
    Mr. Dodaro. 134. You are only a buck off.
    Senator Heitkamp. OK, 134. That is what I was going to say. 
But that is a pretty good return on investment. But when people 
do not implement the recommendations, we are not only 
frustrating the purpose of government, but we are frustrating 
this opportunity for financial savings.
    So, when you look at the creation of a possible database 
that would serve kind of as a crosswalk across the top 25 open 
GAO recommendations and any related IG recommendations for 
agencies to address specific findings, can we look at a way of 
prioritizing or collaborating or actually--as we whittle down 
this number, if they take the low-hanging fruit--I do not want 
them always to take the low-hanging fruit, is my point, because 
doing the tough thing has the effect of having long-term 
systemic reforms that will reap rewards and financial 
opportunities going forward.
    Mr. Dodaro. Yes, I agree with you. And as a step in that 
direction----
    Senator Heitkamp. That is always a good way to start an 
answer to the question: ``I agree with you.'' [Laughter.]
    Mr. Dodaro. Well, I have learned something in over 100 
hearings. But as a step in that direction, though, I have sent 
these letters to all major departments and agencies with the 
total number of recommendations, but also prioritizing them on 
a very limited number of areas where I think there are dollar 
savings and big improvements that could occur. We have shared 
those letters with the Congress, with the various committees, 
the appropriation and authorizing committees for the agencies. 
So we could start there with a list of those priority 
recommendations and make a major push where Congress could hold 
hearings, write follow up letters, et cetera. And then we can 
figure out a way to better institutionalize that in the 
database.
    Senator Heitkamp. Yes, I am very excited about what you are 
doing, and I hope you share with our staff all of those 
letters. Once again, it is the diffusion of all this authority. 
This is the Committee where it all can come together.
    Michael, thank you so much, and I am going to go back to my 
chart. Obviously, GAO has that consolidation. You are present, 
kind of the internal auditor, the internal watchdog in every 
agency, so we do not have that overarching view of what the IG 
recommendations are. There may be, some patterns that we can 
see that we need to take corrective action on. What do you 
think about doing a database, doing something like GAO does 
that can give us a better kind of view from a mile high 
perspective?
    Mr. Horowitz. I think it is a great idea. I think the issue 
has been for us in the IG community--Congress created the 
Council of IGs in 2008 to try and place some of these 
functions. We have not been funded with an appropriation in any 
year since our creation. The last 4 years, we have asked to be 
included in the President's budget. We have not been. We have 
been funded through a variety of mechanisms, and we are talking 
about a request of about $4 million that we have asked for.
    Our budget this year is about $6.5 million. It takes a fair 
amount of staff to do that kind of work and information 
technology (IT) infrastructure as well. We do not think we even 
have the IT capacity to do that at this point without an actual 
appropriated direct appropriation to do it.
    Senator Heitkamp. It is just so frustrating because this is 
so penny-wise and pound-foolish, I mean, to not have agencies 
like yours fully funded, in fact, not even challenge you to amp 
up your work, to realize more savings. And so we want to 
participate and play a pretty active role in encouraging and 
being your advocate here to get that level of funding, because 
I think that it would be very enlightening to see those 
recommendations across agencies and see what we are seeing over 
and over again as recurring patterns of inefficiency.
    Mr. Horowitz. And just to pick up the investment point, 
every dollar invested in IGs returns about $18 in much the same 
way. And that does not count, for example, in my agency all the 
non-dollar-related work we do like on a Fast and Furious, like 
on National Security Letters, and that kind of work.
    Senator Heitkamp. Yes, and I think Gene made such an 
excellent point, that not only do we see dollar returns, but we 
see returns in better services. The point that Joni made about 
veterans, it is not just about dollars. This is livelihood.
    And, Colonel Crumpacker, when I started on this Committee, 
we were tearing our hair out because there was an attitude, we 
believed, about GAO at Homeland Security that was not very 
conducive to resolving a lot of the controversy, and with your 
presentation today, we are seeing a pretty positive attitude, 
seeing the numbers go down. I think that is really a step in 
the right direction, so I want to applaud the effort of 
Homeland Security in stepping up and actually being responsive.
    Mr. Crumpacker. Thank you, Senator.
    Senator Heitkamp. I think that is a great step forward and 
real progress.
    With that, I will yield the floor.
    Senator Lankford. Thank you.
    I will ask a few questions as well, and then we are just 
going to open up the microphone, and we will have open dialogue 
here around the table.
    Gene, talk to me a little bit more about the follow up 
process with Congress. As you mentioned before, this is a 40-
year process that has been in place, and it needs a review. So 
talk about the rest of the details on that.
    Mr. Dodaro. Yes. Well, first, we have a wide footprint 
across the Congress. Last year, about 97 percent of the 
committees and 66 percent of the subcommittees requested GAO 
work. And some of that requested work is actually right on 
following up on our recommendations on previous reports. So 
that dialogue goes on all the time.
    We are heavily involved with the appropriations bill every 
year. Since it is a vehicle that goes through every year in 
both the Appropriations Committees and the subcommittees work 
with them on open recommendations and recommendations things 
the agencies have not agreed to and that still need to be 
implemented. We encourage them to put something in statute, and 
that works. For example, where there is a need for an agency 
plan, say, to improve an IT project, the committees will 
withhold the money until agencies implement our 
recommendations.
    This happened for Defense spending. For example, we found 
that the Department of Defense was using a proliferation of 
camouflage across all the different services. And not only was 
it wasteful from a dollars standpoint, but it had safety 
implications because you cannot operate well in joint 
environment having different camouflage patterns. You are 
supposed to be disguised from the enemy, not from yourselves. 
And so DOD agreed with our recommendations, but Congress 
mandated in the national defense authorization bill that they 
have a uniform approach to that issue. So that is just one 
minor example of Congress acting to reinforce our 
recommendations over time.
    Now, the 60-day response is something that has been in 
statute for 40 years, and regularly these letters go to 
committees. I am not sure, quite frankly, what all the 
committees do with the letters that they receive. We get them, 
too. We follow up. In some committees we have regular dialogue 
on these. Some others we may not have the same level of 
attention. Because I am not sure, I want to look at it 
systematically across the various committees in the Congress, 
and we plan to do that. And once we have that done, we will 
share the results with this Committee and see if there are any 
changes that need to be made in statute or in practice.
    I want to look at this, too--what the quality of the 
responses are from the agencies in the 60-day letters. So I 
want to look at whether or not they are being clear on whether 
they are going to implement our recommendations.
    Regarding Senator Tester's question earlier about DOD, I 
also want to make sure, too, ultimately that they will 
implement the recommendations. But the pace at which they are 
going about this in many cases is too slow to realize the full 
benefit. So it is not only whether they are going to eventually 
implement recommendations, but it is the pace at which they are 
implementing them, where Congress can be very helpful. We 
expect that the prioritization of the recommendations could be 
helpful too.
    Senator Lankford. Is it your suspicion, because of the, let 
us say, tenacity of the infrastructure there and bureaucracy at 
DOD that it tends to slow down the process and takes long to 
get anything done? Or is it the decision whether they are going 
to do it or not?
    Mr. Dodaro. I think sometimes the decision to implement a 
recommendation may not be with the level of intensity that we 
would like to see. It is like, DOD says, it is a good idea, we 
will get around to it when we can. Definitely resource issues 
also come into play.
    I am very concerned--one of the reasons I sent the letters 
to the heads of the departments and agencies now is that we are 
going to have a transition in administrations. There is a huge 
potential--and I have seen this happen over the years; it does 
not matter what administration it is--where there will be a 
lull in the activities of the individual departments and 
agencies. They will not know, what the new priorities are going 
to be of the new administration. It is an opportunity, if they 
do not really believe fully in implementing the 
recommendations, to slow things down until they get new 
priorities.
    So there is a lot of lost momentum that occurs in a change 
in administration, and the Congress needs to be helpful. I try 
to do what I can because we have a lot of continuity in GAO. I 
have a 15-year term, so I see administrations come and go. And 
I try to focus on making sure they maintain good progress on 
initiatives they began but also attend to things that have not 
been addressed before. But I always worry about the loss of 
momentum during these changes in administration.
    Senator Lankford. OK. Let me just open this up for open 
dialogue as well. Mr. Horowitz, let me ask you a question. How 
do you all share ideas. As you mentioned, CIGIE is a fairly new 
organization, so how are the Inspectors General sharing ideas, 
``This is what we do, this has been effective,'' and not only 
methods of investigation but places to go look and things to do 
that become a frequent gold mine for efficiencies within 
agencies?
    Mr. Horowitz. We have organized ourselves not only in 
monthly meetings to get together to talk about issues we are 
seeing and we need to address, but we have broken down our 
structures by committee consistent with the kind of work we do. 
So there is an audit committee, an investigations committee, 
evaluations and inspections committee, an IT committee. Those 
are the committees that get together and talk about what are 
the auditors seeing, what are we finding, what are the agents 
seeing when they are doing their work; evaluators and 
inspectors, same thing; on the IT side, cyber related, what are 
we seeing there?
    They then generate proposals and ideas that the larger 
community then discusses on what should we jointly do. That led 
to our cloud computing review last year, which was a very 
useful and I think important review. We are undertaking one now 
on cyber-related issues as well, trying to think about these 
issues across the community. But we could be doing more in this 
regard, and that is one of the reasons we have sought a direct 
appropriation for several years now because there could be more 
we are doing across 72 IGs and what we are learning and seeing 
and sharing that. But we need to upgrade our IT systems. We 
need staffing to do that.
    We have about 20 staff total for CIGIE. Many of them are 
detailees because we do not have the direct appropriation, 
which means we do not know year to year what the pass-through 
funding is going to be, which has been largely the mechanism we 
have had over the last several years.
    So the President's budget does not include money directly 
for us, but for the prior several years, they have divided up 
through 17 IGs to see if they get funding. Those that get 
funding--not all of them do--then pass the money through to the 
CIGIE. We have asked for, for example, $6 to $7 million over 
the last several years, and in the pass-through process have 
gotten $1 to $4 million. That is no way--we cannot run an 
organization and do some of the things that make complete sense 
to do when we do not know how much money we are getting year to 
year because we cannot hire staff in that way. We can get 
detailees, but that means people are just coming and going, and 
we do not have the kind of consistency that you need to do 
these kind of efforts.
    Senator Heitkamp. It just kind of boggles my mind that, 
from somebody who used to run a State agency and when the State 
auditor gave me a recommendation, man, we turned Heaven and 
Earth to get it done, because we knew there was going to be 
political accountability, accountability and oversight 
committees in the State legislature. We did not always agree 
with what the State auditor told us, but we certainly came to 
terms and said, ``Let us get this done. Let us get the review 
done.''
    And so I think that part of this is trying to change the 
dynamic of what seems to be maybe a little bit too cavalier of 
an attitude that, ``Well, it is just those guys,'' ``It might 
be a bad hearing on the Hill, but everybody will forget about 
it, and we will just go about our life the way we have always 
gone about our life.''
    How do we change that attitude? Colonel, I want to talk to 
you, because I think we have--and I think Gene would agree--
seen an attitude change at DHS. What kinds of things internally 
did you do to really make the supervisors and everybody there 
aware that these are problems, we do not want to go to the Hill 
anymore and say we are on high-risk and doing nothing about it, 
let us change attitude, let us work collaboratively and 
cooperatively with GAO? And how can we kind of take your 
experience and expand on it in other agencies?
    Mr. Crumpacker. So with us at DHS, it, quite frankly, 
started with the senior most leadership in the Department, from 
the Secretary, the Deputy Secretary, the General Counsel, and 
the Under Secretary for Management. If you go back to each of 
their confirmation hearings, this type of issue was discussed 
at the hearings, and they all went on record and committed to 
helping grow and robust up the new and improved process that we 
had. And that cascaded down through the Department. They have 
been tremendously supportive of my office. We are allowed to 
reach out and touch anyone anywhere within the Department at 
any time to dialogue and engage on GAO and OIG audit activity.
    Senator Heitkamp. So you think the accountability point 
really was when it reached a level here where we are sitting 
across from the nominee saying, ``Here is your audit report. 
What are going to do about it?''
    Mr. Crumpacker. Well, I think our leadership wanted to do 
the right thing and would have done it regardless. But 
certainly when it is on record at a confirmation hearing and 
they have taken that to heart and followed through, they have 
cascaded it down. The Comptroller General talked about 
recommendations hopefully being closed within 4 years. Our goal 
at DHS is to close them within 2 years, 24 months, and we track 
and monitor that all the time, to include bimonthly briefings 
to the Deputy Secretary and other senior leaders, including the 
Under Secretary for Management and the General Counsel.
    Senator Heitkamp. Not to belabor this, but, Gene, that 
might be the point of getting that kind of information on what 
is open so we do not see a lapse as we transition and make it 
part of that process, make it part of the expectation that when 
you come, you are going to take these recommendations 
seriously, and if you do not agree with them, then we can have 
that debate. But if you do agree with them, then what is the 
timeframe?
    And so I think, having a high-profile evaluation here on 
these kinds of recommendations and having your priority list 
and having those letters is going to be useful in the 
transition.
    Mr. Dodaro. Yes, there are two points on this.
    One, we have done for this Committee in the past a set of 
questions that could be asked during nomination hearings. 
Senator Voinovich was involved in this before. We can dust that 
off and update it and provide that to you as well. This was 
made broadly available from this Committee to all the other 
committees that hold confirmation hearings on new appointees.
    Second, under the Presidential Transition Act, GAO has a 
responsibility to be a source of information to incoming 
administrations. So last time, in 2008, we produced a website 
with all the key issues that we thought by department and 
agency, on a cross-cutting basis and priority recommendations 
for the incoming administration to use. That was made available 
to the Congress and the public all at the same time. We did 
that 2 days after there was a President-elect determination, so 
we are positioning ourselves to do the same thing next time 
around.
    Now, while I have the floor, there is one correction I need 
to make, that I think is significant. The 60-day letters that 
we have been talking about, by law they come to this Committee, 
GAO's oversight committee in the House and the Appropriations 
Committees. They do not go, my team tells me, to the 
authorizing committees, as Senator Tester mentioned. So I want 
to correct that answer, but also, I think that is an 
opportunity for changing the law. I think they need to go to 
the authorizing committees.
    Senator Lankford. Or it should be standard practice that 
this Committee shares it with the authorizing committee.
    Mr. Dodaro. Yes, so we will take that and then build upon 
any other suggestions in our reexamination. But I think that 
change should be made.
    Senator Lankford. Can I ask a follow up question as well on 
DHS? Some of the high-risk areas that have come up, the Federal 
Emergency Management Agency (FEMA) Disaster Relief Fund (DRF) 
and the administrative costs, that was one of those areas that 
for 10 years, there was 13 percent administrative costs to be 
able to run the Disaster Relief Fund. Tell me where that is and 
what the conversation is like, and how do you resolve that? So 
as you are walking through, that is a big one. That is billions 
of dollars. How does that kind of thing get resolved?
    Mr. Crumpacker. Well, there was an audit report this year, 
which we responded to, and it began with our program officials 
and subject matter experts specifically concurring or non-
concurring with each recommendation, and I believe, as I 
recall, they concurred with all of them. And then we told GAO 
which office within FEMA or elsewhere is going to take the 
action, what are they going to do and when is it going to be 
done. And, generally speaking, when we respond to any audit 
report, GAO or OIG, our rules of engagement, if you will, 
within DHS are that you have an estimated completion date, and 
it is generally OK to have that up to 12 months from the date 
the report is issued. If it is going to go beyond 12 months, we 
ask the program officials to provide us interim milestones, 
which we track and monitor.
    On the Disaster Relief Fund administrative costs, that was 
also a duplication/overlap issue that came out this year, in 
2015, and so that is new for us in the duplication/overlap, and 
that is a work still in progress. We could certainly get back 
to you with details\1\ on what is being done to address that.
---------------------------------------------------------------------------
    \1\ Mr. Crumpacker response to Senator Lankford's question appears 
in the Appendix on page 95.
---------------------------------------------------------------------------
    Senator Lankford. Is that an assumption that that is a 2-
year project then? As you mentioned, it is 4 years that you 
consider it open, but for you, you really try to get this done 
in 2 years.
    Mr. Crumpacker. On the recommendations-related audit 
reports our goal is to close them all within 24 months of 
issuance. On the duplication and overlap, those are not 
recommendations per se. We call them ``actions.'' We track and 
monitor those separately. Many of those actions are the same as 
the recommendations in the underlying supporting audit reports, 
but I would have to look at those specifically.
    Senator Lankford. And when you have other agencies engaged 
in this, and this is what Gene Dodaro was mentioning before 
about when it is multi-agency it gets tougher, what happens? 
Give us an example of a multi-agency issue that you will have, 
and how does the process work with OMB to be able to help 
resolve the issues where there is duplication between agencies 
or there is overlap there.
    Mr. Crumpacker. So I would not be able to speak to what 
might or might not go on at OMB. Typically, that would be 
handled by----
    Senator Lankford. I am just talking from your side of it, 
what communication you receive from OMB and how that works and 
how they coordinate with you.
    Mr. Crumpacker. And that communication would typically go 
directly to the program officials.
    Senator Lankford. OK.
    Mr. Crumpacker. Our office is not involved in that.
    Senator Lankford. So you work directly with GAO and with 
the OIG, but not necessarily with OMB, in implementing some of 
their recommendations if it is multi-agency.
    Mr. Crumpacker. That is correct. What we do with regard to 
a nexus to OMB is that we do track and monitor and ensure the 
accomplishment of the 60-day letters that are supposed to be 
sent to OMB and the Congress, and so we ensure that those are 
going in in a timely manner. DHS, as you can see in the written 
statement, I think it was 2008. It took us, quite frankly, 18 
and a half months to get a 60-day letter out. The last 2 or 3 
years, we have been down to 62, 63 days. 2016 is going to be 
the year that for the first time ever we get down below that 
60-day----
    Senator Lankford. Fifty-nine days. [Laughter.]
    Mr. Crumpacker. Yes, sir.
    Senator Lankford. Can I ask another one lingering--and, 
Senator Portman, just jump in any time. We are on our second 
round, and it is a more open conversation here. But one other 
question just about Fast and Furious. Mr. Horowitz, you brought 
that up. Obviously, that is a long, lingering issue with a lot 
of recommendations that are now sitting out there. It is 6 
years at this point on Fast and Furious. Tell me where that 
status is, recommendations, and the implementation of that.
    Mr. Horowitz. So while the issues for Fast and Furious were 
back in the 2009-10 period, our report was 2012. So we are 
finishing up our follow up review of where those 
recommendations remain 3 years later so that we can decide 
whether they are now closed--whether they can be closed. And we 
are pretty near finalizing that and getting it here to the 
Hill, I think, very soon. And that is one of the ways, by the 
way, that we prioritize. We do not internally prioritize our 
open recommendations. We usually issue an aging report in 
essence to this Committee and to the leadership. We prioritize 
by doing follow ups on the most significant issues that we have 
and doing a review within 2 or 3 years usually to see where 
that is, a more thorough follow up review than perhaps just 
getting their paperwork, and reviewing what the Department is 
submitting to us. We are actually out there interviewing people 
and talking to people.
    Senator Lankford. OK. Senator Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Well, first, thanks very much to both of 
you for holding the hearing and, more importantly, this 
Subcommittee has been more active than perhaps Subcommittees 
have been in the past on the issue of oversight and 
specifically how you take the IG work and the GAO work and 
track it and implement it as appropriate. So I appreciate them 
spending the time and effort on this.
    I think this is a time when we should all be doubling down 
on how to make government work more efficiently. We have this 
unsustainable debt and deficit, and one place to have some 
savings is, of course, with regard to more efficient 
government. And so I rely on the GAO reports and the IG reports 
and the Permanent Subcommittee on Investigations. As you know, 
that is one of our great sources of information. But there are 
some broader things that I think can and should be done by the 
full Committee, too, and so this is a great way for us to 
understand whether we are tracking this or not.
    I am sorry I got here a little late. There is a lot going 
on right now with the omnibus and the extenders package, and I 
was in a meeting on that extenders issue.
    I guess my question would be more generally about the 
process. My understanding is that when you all at GAO, Gene, 
issue a report that the agency head has a requirement to send 
that report to us within a certain period of time and that you 
have indicated you might look at that process, and I do not 
know how my colleagues Senator Heitkamp and Senator Lankford 
feel about this, but it seems to me there could be a more 
transparent way for us to get those reports and to get some 
agency reaction to those reports. But maybe you have already 
talked about this this morning. If you have, I apologize, but 
what is your proposal about how to make that system work 
better?
    Mr. Dodaro. Well, first of all, I would like to look to see 
whether the agencies are responding in a timely manner 60 days 
or not. I am not sure we have a systemic picture across 
government on that issue. We talked about making sure the 
letters now go to the authorizing committees as well as the 
oversight and the appropriation committees, so that is a change 
I would propose that we make in the future.
    Second would be the transparency you mentioned. I want to 
evaluate the quality of their responses whether the agencies 
are actually giving good responses to the Congress. I also want 
to then evaluate standard practices in GAO for reviewing those 
letters we will then engage in a dialogue with the committees 
regarding their perspective on the agency response letter.
    So I think we could perhaps look at ways where this could 
be more transparent----
    Senator Portman. Are you undertaking that process already 
to look at the system and see whether it is working?
    Mr. Dodaro. We have not started yet. I plan to start--quite 
frankly, the genesis of this hearing prompted me to think about 
it.
    Senator Portman. OK.
    Mr. Dodaro. So I would credit this hearing as a means of 
getting us started on that process.
    Senator Portman. I for one would like to encourage you to 
do it, and I am sure that Chairman Lankford and Ranking Member 
Heitkamp would also like to be part of that. But I think that 
is really an interesting opportunity for us to at least get the 
good work that is being done used in a more effective way, to 
put it in the agency's hands to have to react to it and to get 
it to us in a way that makes more sense to actually follow 
through and hold people accountable.
    The other question I would have, I guess, is just what your 
relationship is like with your departments. Mr. Crumpacker, you 
talked a little about how your relationship with your DHS 
senior officials is positive. There is a transparent 
relationship; they look to you to provide them information. Is 
that accurate? Do you feel like you have a good relationship?
    Mr. Crumpacker. Absolutely, yes, sir. I have a good 
relationship within the Department with senior leadership at 
all levels, and I have a good relationship outside of the 
Department with both GAO and the OIG. As an example, with GAO, 
we have a quarterly coordination senior leadership meeting that 
has happened--I cannot remember when it started, at least 6 
years ago. Every quarter we meet with George Scott, the 
Managing Director for Homeland Security and Justice Issues, on 
the DHS side. That meeting is chaired by the Under Secretary 
for Management and the General Counsel. So that is the type of 
ongoing engagement, an example of the type of ongoing 
engagement that we have to maintain and continue to build our 
relationships.
    Senator Portman. Would the IG agree with you?
    Mr. Crumpacker. Yes, sir. As a matter of fact, in my 
written statement there is a quote from Mr. Roth where he 
recently told me that--if I could just turn to it, he said: 
``That your office even exists is a testament that DHS has a 
mature and constructive attitude toward what we do.'' So I do 
believe he would agree.
    Senator Portman. All right. Now let us turn to Mr. 
Horowitz. Do you think your office enjoys a similar 
relationship with the Department of Justice leadership?
    Mr. Horowitz. I do. We have had traditionally a very strong 
relationship with the Department's Justice Management Division, 
who is responsible for following these up. I think one of the 
things that we have done to effect more change at the 
Department is within the last 2 years send to the Attorney 
General and the Deputy Attorney General, as well as to the 
Congress, our complete list of open recommendations, because 
what we were finding is, among the dozens of components at the 
Justice Department, some were being more responsive than 
others. And the Justice Management Division, no matter how much 
they wanted to help, they are one of those components among 
many and having the leadership involved could perhaps move this 
process along further. And the Deputy Attorney General's office 
has been very helpful in that regard and just this month has 
put now in place a new system, a mechanism, and is advising the 
components across the Department to work with Justice 
Management Division auditors to move these along. So that has 
been helpful, and we are hoping to see more movement now.
    Senator Portman. How about your access to sensitive 
information? You have expressed concern in the past of not 
having access to everything that you would like in terms of 
sensitive issues.
    Mr. Horowitz. There remain issues in not only the Justice 
Department but across all IG offices following up on the Office 
of Legal Counsel opinion that interpreted the IG statute, 
looked at the IG statute, and it is unclear at this point 
whether the provision in Section 6(a) of the IG Act regarding 
all records and access to all records for IGs indeed authorizes 
us to have access to all records in the hundreds, if not 
thousands of statutes that have limitations on them on access.
    In connection with our work, we do not have independent 
access anymore to grand jury, wiretap, or credit information at 
the Department. The Department decides whether as a legal 
matter we are entitled to those records, and that is not 
consistent with, in our view, independent oversight.
    Senator Portman. Would you be willing to give us your 
recommendations as to how the statute could be clarified?
    Mr. Horowitz. I would, and I would say, Senator, that the 
proposal that I think is pending to address this on the IG 
Empowerment Act, which this Committee already approved, would 
add the language that I think would resolve the issue for us. 
We are hopeful that is, in fact, the language that is adopted 
by----
    Senator Portman. That would solve the problem, you think, 
in the Empowerment Act?
    Mr. Horowitz. That would solve the problem. It would make 
clear that unless Congress explicitly said IGs should not get 
certain records, the default is Congress intended the IGs to 
get the records. Right now we are operating essentially on the 
reverse proposition.
    Senator Portman. And, Gene, is there any legislative help 
that you think you need in order to make this system work 
better of transmitting reports to this Committee and to the 
Congress?
    Mr. Dodaro. I think that the recommendations I made earlier 
about making sure the reports go to the authorizing committees 
is the one I would cite right now.
    Senator Portman. Does that require statutory change, do you 
think?
    Mr. Dodaro. Yes. In the meantime, what we can do is make 
sure when we get them, we give them to the authorizing 
committees. But that is not an efficient way to do it. It would 
be better if the agencies did it as well.
    Senator Portman. With their input, preferably.
    Mr. Dodaro. Yes.
    Senator Portman. Thank you, Mr. Chairman.
    Senator Heitkamp. Can I just run down--I have been trying 
to keep a kind of running list of ideas and issues here as we 
look at adding this kind of good governance piece, and you are 
absolutely a foundational need for good government. There is no 
doubt about it. But if nobody wants to build on that, we do not 
get the results that we need.
    So we are talking, Gene, about the 60-day letters. You are 
going to look to see if there is a quality response kind of 
indication, or if they are just--the night before it is due, 
throwing something together as opposed to actually having a 
plan for implementation. Then legislation on authorizing 
committees, looking at transparency, increasing the 
transparency of the 60-day letters. And then taking a look at 
standard practices on how you deal with them. And some of those 
are administrative, and some of those are legislative, and we 
will have to sort through that.
    We have the IG Empowerment Act that absolutely needs to be 
done if the IGs are going to be our partners that they need to 
be. We have heard today a specific problem with the Department 
of Health and Human Services, access to the database for cross-
referencing any kind of fraud or failure to basically do the 
double-check that we need to do to make sure that people are 
not getting paid who are not statutorily qualified to be paid.
    Then looking at the additional resources, and that is 
something that we need to share with our colleagues. Senator 
Tester is on Appropriations. Senator Lankford is on 
Appropriations. That is helpful to bring that message back.
    But I honestly believe that as we have seen the benefit of 
this collaboration across agencies that GAO is able to bring as 
a result of their centralized mission, that we need to do 
something like that--maybe not centralize the IGs, but 
definitely create a database and create the resources that we 
need. And then, obviously, the authorizing committee.
    What did I miss here?
    Mr. Dodaro. No, I think you got everything. The human 
resource base, the new hire database----
    Senator Heitkamp. Yes.
    Mr. Dodaro. But that is a pretty good list. I do not think 
you missed anything.
    Senator Heitkamp. The one thing I want to talk a little bit 
about is, as we now go into tax season again, the problems that 
we have with the Internal Revenue Service (IRS) database and 
with inappropriate refunds. Everybody wants to get their refund 
quickly. That is the system that we have now designed. As a 
former tax commissioner, if we got your refund within a month, 
people were thrilled. That now would be seen as, my goodness, I 
want it tomorrow kind of thing. Obviously, that desire to get 
people back their refund has created a situation where we may 
not be doing the kind of double-check that we need to do before 
those refunds go out. And I know that is not the purpose of 
this hearing, but I am concerned as we go into this tax season 
that we are better prepared than we were last tax season to 
catch fraud and abuse of that refund system.
    Mr. Dodaro. This is an area--that fits with this hearing. 
We have open recommendations that require a statutory change by 
the Congress that we think is necessary to fix this problem.
    No. 1, you need to accelerate the dates for W-2 filings. 
Right now the IRS does not get the W-2 information to match, 
from the employers until April. And by then it is too late. The 
crooks file early, and they are filing using identity theft, 
and that is a big vulnerability, and IRS is limited in their 
ability to obtain information to prevent it. This would also 
help in other areas in terms of, wage withholding for Social 
Security to have the W-2 information earlier. So that is No. 1.
    No. 2, we think Congress ought to give IRS the authority to 
regulate paid tax preparers. A lot of returns are prepared by 
paid tax preparers. IRS has done an analysis. A significant 
number of those returns have inappropriate advice, for example 
claiming the Earned Income Tax Credit (EITC). We did an 
undercover investigation where we sent people out to 19 paid 
tax preparers, and in only 2 cases did we get the correct 
answer for the situation that we had in terms of the filing 
situation of our undercover teams. And we looked at the data 
that IRS had submitted, and over 60 percent of the returns, our 
estimate is--and they confirmed it--prepared by paid tax 
preparers had errors in them.
    So IRS tried to regulate prepares based on these concerns. 
This is a case where the agency moved quickly on our 
recommendation, but then IRS was sued. And the courts 
determined they did not have the authority to regulate in this 
are and so Congress needs to act in order to----
    Senator Lankford. So the question I would have with that, 
and I have had this conversation with the IRS as well on it, is 
the carrot-stick approach here. They used the stick heavily. 
The reverse of that is to say you can only do fast returns and 
be listed as a paid preparer that actually has a--who basically 
gets in the fast lane, the HOV lane of returns if you are 
certified. If you are not certified, your returns take a month 
to get back. If you are certified, it takes a week to get back. 
Every one of these paid preparers says they can get it turned 
around fast. They will all go through the certification if they 
get that access to it.
    Do they have access to do that right now, or would that 
take legislative action?
    Mr. Dodaro. I will have to take a look at it. My initial 
response, pending a more detailed response, would be they would 
need to have legislation in order to do it.\1\
---------------------------------------------------------------------------
    \1\ Mr. Dodaro response to Senator Lankford's question appears in 
the Appendix on page 98.
---------------------------------------------------------------------------
    Senator Lankford. OK.
    Mr. Dodaro. We looked at Oregon that regulates tax 
preparers, has for a number of years, we did an analysis, and 
we found that you have a 72-percent higher rate of accuracy in 
tax returns filed in Oregon than you do anywhere else in the 
country. We always call our States the ``laboratories of good 
government.'' It has been proven to be effective in Oregon, and 
I think the IRS could do it.
    Now, how they exercise the authority and go through due 
process for a carrot-stick approach or a different, maybe 
tiered approach would be up to them. But I think it would be 
better if the Congress gave them the authority and had them 
develop a proposal for Congress on how they would exercise the 
new regulatory authority. The proposal could include benefits 
and costs and how to avoid any downsides of overregulation.
    Senator Portman. We have a little opportunity in the 
extenders package to do something for enrolled agents, 
something that has been in the mix for, I think 12 years now, 
and it would help because these enrolled agents do have this 
expertise and the certification process they have to go 
through, or they cannot advertise it. To me it is crazy. So 
that is a small way to help. That is not necessarily going to 
answer all of the questions that you have raised, but to have 
people who have professional certifications in this area being 
able to tell people that if you come to us, you are going to 
get a better, more accurate return in, I think that is helpful.
    Could I ask a question about the Congressional Review Act? 
Again, this may have come up earlier, but it is not directly 
related to these reports, but it is related to GAO. And you 
know that it was for a while true that when a Federal agency 
sends final rules to Congress, they also send them to GAO 
before the rules can take effect, and GAO used to keep track of 
all those covered rules that are being submitted and would 
notify OMB of any missing rules. And in November 2011, my 
understanding is GAO stopped checking the Federal Register and 
stopped notifying OMB of these missing rules. According to the 
Administrative Conference, once GAO reduced the check of the 
Federal Register, stopped doing this process, the number of 
rules in the GAO database fell sharply.
    Can you explain why GAO stopped keeping track of rules 
being submitted to Congress and whether you think it would be 
worthwhile to endeavor to resume that?
    Mr. Dodaro. We are still carrying out our statutory 
responsibilities. I will have to get back to you with an answer 
on that. I know this has come up before. I have looked into it. 
I was satisfied that we had a good reason but I cannot remember 
it off the top of my head. And I do not have anybody here who 
can give me an answer to that. But I will get you an answer by 
the end of the day.
    Senator Portman. Well, that would be helpful. When I was at 
OMB, it was done, and I am told, again, by the Administrative 
Conference folks that that is no longer the case. So we would 
love to hear from you on that.
    Mr. Dodaro. Sure.
    Senator Portman. Another potential legislative activity we 
could undertake here to help to get a better sense of what the 
rules are and just more transparency to Congress.
    Mr. Dodaro. And as I am recalling it now, I think it is a 
resource issue as well. So we will let you know about that as 
well.
    Senator Portman. All right. Thank you.
    Thank you, Mr. Chairman.
    Senator Lankford. Mr. Horowitz, could I ask you a question 
just about people and what I have found in visiting with many 
of the agencies and the individuals who work in the agencies? 
They are some of the most frustrated people about the work of 
the agency because they see the bureaucracy and they see the 
inefficiencies, and it seems like they have very few places to 
be able to get that out. Can you talk a little bit about 
whistleblowers and their own protection and then the 
opportunity for not just whistleblowers but just suggestions 
and ideas? And are the IGs watching for that and watching for 
how are good ideas rising out of the employees in these 
agencies? Is that something they regularly check? And if so, 
how are we managing some of the whistleblowers and some of the 
ideas and suggestions?
    Mr. Horowitz. We do follow that, and one of the actions 
that IGs took in light of the Whistleblower Act adopted 2 years 
ago by Congress, the whistleblowers enhancements----
    Senator Lankford. Right. We had additional protections that 
we had a markup on yesterday dealing with the same thing.
    Mr. Horowitz. And we all have now ombudsmen throughout the 
OIG community. We have created in CIGIE a working group among 
the ombuds to get together to talk about the commonality of 
issues that we face across the IG community on whistleblower 
issues. We have been very engaged with the Office of Special 
Counsel (OSC) to make sure we understand what they are seeing, 
because they obviously have the best picture into retaliation 
issues that come to whistleblowers, and it is something that I 
have done particularly within my own agency, the Justice 
Department, to make sure that we are being, as an OIG, more 
responsive and appropriately responsive to whistleblowers and 
that we get training across the Justice Department on 
whistleblower issues.
    We have authority on the Federal Bureau of Investigations 
(FBI) whistleblower retaliation. That comes to us as an OIG. It 
does not go to OSC. So we have a special interest in these 
issues for that reason. One of the messages that I have 
certainly tried to get out--I know my colleagues in the IG 
community have tried to get out--is that we have 14,000 staff 
throughout the 72 OIGs. We know a lot about what is going on in 
the agencies we oversee. But the real eyes and ears of the 
organization are the people who work day in, day out at the 
agency. They know far more than we ever will know, and they are 
the ones we need to come to us with issues they are seeing if 
they are not getting resolved by their supervisors, their 
managers, their boss' bosses, and we have to have that open 
door.
    Senator Lankford. So how is that relationship? Is that 
different agency to agency? How are the Inspectors General 
getting out, getting into the cubicles, getting a chance to 
visit with people, getting the feedback and ideas in that 
relationship? Is this a piece of paper in the break room that 
says if there is a suggestion here is where to call? Or is this 
an actual relationship that is out there being built?
    Mr. Horowitz. It varies across the 72 IGs. As we have seen 
in the newspaper reports, various agencies have had issues with 
how they have dealt with whistleblower issues, and those have 
played out publicly. One of the things we have tried to do--and 
I know other IGs are doing and working with the Office of 
Special Counsel, for example--is getting certified pursuant to 
Section 2302, working with the agencies to get them certified 
pursuant to Section 2302, which is essentially an educational 
effort, to make sure managers and staff understand their 
rights, understand what they are supposed to do when an 
employee wants to come forward, and what they are not supposed 
to do when an employee comes forward. And study after study on 
these issues shows that what employees, whistleblowers, want to 
see is some responsiveness to their concerns and that they 
almost inevitably stay within their chain of commands first.
    Coming to us as an OIG is usually an extraordinary step for 
somebody. They want to see change occur within their 
organization and within their own working group. And so we as 
IGs have to be sensitive to that, and that is something we have 
worked on, as I said, internally, but also getting our message 
out externally.
    Senator Lankford. And that should be obviously working 
within the chain of command. If the first call is the Equal 
Employment Opportunity Commission (EEOC) or to the IGs or 
something, this suddenly blew up in a hurry, it should be 
resolved within chain of command most of the time. My concern 
is that for individuals that feel frustrated, it is not getting 
resolved.
    I am going to flip the subject here real quick while we are 
dealing with personnel issues. This Committee also has the 
Federal workforce as well as multiple other areas. The issue of 
probation in the Federal workforce has been one that IGs have 
looked at over and over again. Administrative leave has been 
one of those issues that there have been multiple issues on how 
to be able to handle this. Any new recommendations or ideas 
dealing with probationary periods or administrative leave that 
have come up?
    Mr. Horowitz. We have actually been working with some of 
the members recently. We are putting together a bill on this 
and communicating some of the issues we have seen, and I agree 
with you. One of the things we have tried to do, again, within 
our own agency is work with the Justice Department to try and 
ensure that they have information and understand when someone 
truly needs to be on administrative leave or perhaps just needs 
to be reassigned while we finish our work. And we are learning 
that is an experience we have across the IG community that we 
are sitting with Members of Congress right now as they are 
putting together a bill to address some of these concerns, and 
Senator Grassley in particular has been involved in that 
effort. I know a number of other members have as well.
    Senator Lankford. OK. Thank you.
    Senator Heitkamp. Going back, James was talking about, the 
carrot and the stick. Let us talk a little bit about the 
carrot, which is, how do we reward agencies who can find cost 
savings so that they can actually kind of reward employees. I 
am curious, Gene, have you seen any agencies that have run a 
very good--tell us what your efficiency idea is and we will 
implement it and, kind of a good reward system for Federal 
employees to basically participate in cost savings.
    Mr. Dodaro. I would have to go back and check. I know we 
have looked over the years at various efforts including gain-
sharing ideas, and they always ran into methodological problems 
in justifying the savings, having good data to justify any 
rewards, and then how the allocations would be done. But I know 
that there needs to be better incentives, because a lot of 
agencies will say, well, if we save the money, we do not get to 
keep any of it, and so what is the incentive?
    And so I will go back and give you a thorough answer on 
this and understand a little bit, but I know enough to know and 
feel confident of telling you it is not where it needs to be.
    Senator Heitkamp. Right.
    My point is we can kind of threaten agency heads with, 
whistleblower and, we are out to get you, or we can provide 
incentives for them to look for the cost savings and for them 
to actually participate with us in encouraging employees to 
step up and rewarding employees who do step up with great ideas 
on saving money. I just honestly believe that there is a plan 
out there or there could be a plan out there that could reap 
greater rewards, and more than anyone else, you have that kind 
of view from a mile high on all these agencies. And so I would 
be really curious about, what agency you have seen that has 
done a particularly good job incentivizing employees to 
participate in cost reduction.
    Finally, I have one question that goes back to workforce 
and is something that you raised early on, Mike, which is this 
idea of cybersecurity. My question is: Do you think that there 
is adequate expertise within agencies--and this is probably for 
you, too, Gene--adequate expertise within agencies on cyber 
issues--and we say, obviously, very high profile instances of 
data breaches--today that protect that Federal database from 
hacking, that protect, critical infrastructure of this country? 
Do you think we have the employee base?
    Mr. Horowitz. We just actually did a review of that earlier 
this year on the next-generation cyber initiative that the FBI 
does. We looked at this issue extensively within the FBI, and 
that was one of our most significant findings, is the FBI has 
lots of vacancies in these very critical positions for the 
reasons we now see in the news as to how important it is to 
have the right staff. Pay is an issue. Recruitment and other 
issues arise in getting top-notch talent to fill those jobs, 
and we found lots of vacancies and made recommendations 
regarding that.
    Senator Heitkamp. I know we are running a little bit over, 
but I am curious what you think the three key recommendations 
are to fill that gap.
    Mr. Horowitz. Well, one is pay. The FBI simply cannot 
compete on some of these positions, as we learned, with private 
sector opportunities.
    A second issue which Director Comey has talked about is 
some of the background checks that go on, and that the FBI has 
to think about how they do that for the current graduates and 
individuals they want to recruit for these positions and 
thinking about how do they attract the right talent and get 
them through, people who can get through the background 
investigation process.
    So those were just a couple of things that we identified as 
well as outreach and greater recruitment efforts.
    Mr. Dodaro. Senator, I would just add, if I might----
    Senator Heitkamp. You bet.
    Mr. Dodaro. On the cyber area, there are critical skill 
gaps, clearly, and it is part of the issue. We first put 
cybersecurity on our High-Risk List in 1997. It was the first 
time that we ever identified a high-risk topic across the 
entire Federal Government as part of our high-risk effort. We 
added critical infrastructure protection in 2003. We just 
recently added the need to protect personally identifiable 
information (PII). People's skills are part of the problem, but 
also they do not have comprehensive security programs in place 
with good training for employees. A lot of malicious attacks 
come from employees clicking on emails and attachments that 
they should not.
    Hundreds of our open recommendations are on the information 
security area and actions the agencies need to take. That is 
probably the single largest category of recommendations we make 
every year, because we do this across government along with the 
IGs. And there are just hundreds of these things, very 
technical things that they need to do, where they have not 
upgraded, they have not patched quickly, they need to do 
continuous monitoring. But the people part is important, but it 
is not the full set of recommendations.
    Senator Heitkamp. Right, and the first line of defense is 
cyber hygiene.
    Mr. Dodaro. Right.
    Senator Heitkamp. There are things that can happen every 
day that will make us safer, but it is not institutionalized. 
We just need to understand on this Committee the workforce 
issues, which is why I asked the question.
    Senator Lankford. I have one final question as well dealing 
with the grants, something, Michael, you brought up earlier 
about the grant issues. Obviously, a large portion of Federal 
funding is shifting toward the grant side of it. How are we 
doing on oversight, both selection of individuals to make sure 
that our agencies, when they are selecting people to receive 
grants, have good oversight with that in the process of it and 
the results are actually benefiting the national security and 
economic benefit of the Nation?
    Mr. Horowitz. I think on the former issue, in terms of how 
the grant-making agencies are scoring and awarding grants, I 
think we have seen a very significant amount of progress and, 
generally speaking, strong movement forward on doing that in a 
more rigorous way. I think the issue many of the IGs have, 
including myself, is the back-end issue that you just 
mentioned, which is how are we really analyzing the performance 
measurements and what kind of metrics are we using to undertake 
that analysis.
    Oftentimes I think we have seen that it is much more of a 
check-the-box approach if you said you would treat 500 people, 
we see you sent us reports that show you treated 500 people. 
Well, the next question would be: What happened?
    Senator Lankford. Did it help?
    Mr. Horowitz. Did it help? What is the outcome? And that is 
where we are not seeing as much rigor as certainly myself and 
several other IGs think should be occurring. And that is a 
reason why--and in our top management challenges this year and 
last year--we put on there that issue in terms of metrics 
generally to be addressed by the Department.
    Senator Lankford. So what can we do as a Congress to be 
able to help with that? Because every year--my office just put 
out a report, as I mentioned earlier, that lists some of the 
grants. Obviously, I did not go through all of them, but they 
are some of the grants that you clearly come back and say, How 
does this help the national security of the United States? 
There was a grant that was given last year researching, Do 
media outlets drive the political climate of the Nation, or 
does the political climate of the Nation drive the media 
outlets? Why in the world did Federal taxpayers pay for that? I 
understand that might be a good research study for a university 
to do or for any media organization to do, but I do not see how 
that drives the benefit of the taxpayer to do a political 
research study like that. That was a study that was done, 
$375,000 to study the dating habits of senior adults. Well, I 
raised the question and said, ``Tell me why the Federal 
taxpayer needed to pay for that particular study.''
    What can we do to help on that? Because there are really 
important research projects that are out there that the Federal 
taxpayer can and should be a part of, but we do not want them 
to get clouted or money to be squandered on things that are not 
important to the Federal taxpayer when there are other things 
that are.
    Mr. Horowitz. Right. Well, through the appropriation and 
grant-making process, Congress puts in all sorts of language 
about certain measures it wants to see take place and occur, 
and certainly in that legislation, there can be requirements 
about reporting certain information and certain metrics and 
having OMB through its omnicirculars put requirements in place 
across the Executive Branch would be helpful as well so that it 
is not agency by agency, which is one of the struggles we have 
as IGs.
    And I will add that in another plug for the IG Empowerment 
Act that this Committee has put forward is an exemption from 
the Computer Matching Act, which would allow us to look at, as 
IGs, across the Federal Government some of the improper payment 
issues that you have been discussing with Gene earlier. That 
would allow us as IGs to stop looking at this simply as 
department by department, but looking at what grants are our 
agencies doing. Duplicative grants has been an issue that we 
have been looking at and I know the GAO has been looking at. We 
struggle to understand and look at the question of not only are 
there duplicative grants within the Justice Department but 
across Federal agencies. And one of the things that we would be 
advanced on by the IG Empowerment Act is being able to perhaps 
share that data more regularly with each other.
    Senator Heitkamp. Can I add to this discussion something 
that is on the other end, which is, $20,000, we are going to 
help you, do some outreach with kids who might be runaways, and 
you end up costing that agency $5,000 in audit costs. So at 
some point, we have both ends of the spectrum, not enough, but 
then also, this kind of check-the-box accountability that leads 
to very high administrative costs on grants.
    I would recommend that you take a look at what that 
accountability, especially the financial accountability piece, 
make recommendations to us and to other folks about, we asked 
for that, it is a check-the-box thing; it is not significant. 
We get that occasionally something might slip through the 
cracks and we end up paying something we should not. But we are 
creating a multibillion-dollar industry on the audit side with 
very little protection to the taxpayer.
    I would just lay that on top of James' accountability on 
one end. Let us take a look at whether we are driving up 
administrative costs and actually resulting in inefficiencies 
through accountability measures that do not add to the security 
and safety of the Federal Treasury.
    Mr. Dodaro. First, on the point that you are making, there 
are inefficiencies not only in the audit process but in the 
application process and the whole delivery system. We have a 
very complicated, expensive intergovernmental delivery system 
in the United States that I think needs to be reexamined and 
roles and responsibilities clarified. The Federal Government is 
on an unsustainable long-term fiscal path. State and local 
governments are under a lot of fiscal stress as well for a lot 
of the same reasons. I do not have empirical information yet to 
support this, but my instincts tell me that we cannot support 
the complicated intergovernmental delivery system in the future 
in the same manner and expect to get a good result at the end.
    With regard to the issue you raise, Senator Lankford, I 
believe we need a paradigm shift. Right now programs get funded 
year after year without having to demonstrate that they had a 
positive result on anything. And when we go in and look at 
overlap and duplication, we find many programs that have never 
been evaluated. So there is really not any empirical 
information to say that the investment that we have made is 
working very effectively. And it is up to the auditors to prove 
that the program is not doing something, you have to really 
prove that it is not doing anything for it to ever get stopped. 
This is in contrast to having positive assurance that the 
program was really successful in achieving its objectives and 
having good, independent evaluation results to say if we 
continue to fund this program, we will get good results.
    I think that that it is totally backward in the way it is 
now. Unless that changes, you are not going to get a different 
outcome.
    Senator Lankford. I would absolutely agree, and this 
hearing is not about legislation because we do not try to come 
with a pre-set piece on this. This is about trying to bring 
openness on it, but there are several pieces that do come up. 
The IG Empowerment Act has come up over and over again, which 
this Committee has already worked through. The Taxpayers Right-
to-Know, that bill which does transparency and also evaluates 
the metrics, that paradigm shift that you talked about, that is 
currently working through the Senate right now. And in the 
Grant Act, which has also been thrown around here, trying to 
provide some basic transparency in how we do grants, those are 
pieces that are currently in process of working through the 
Senate.
    So our hope is that we can actually get some solutions on 
top of some of these big issues, but I appreciate it very much. 
Any other final comments?
    Senator Heitkamp. No. Just once again thank you so much, 
and, I hope this has been a good discussion for you as well as 
for us and gives you some ideas of what we are looking at.
    I just really believe that this collaboration and 
partnership between this Committee and particularly this 
Subcommittee and you guys talking back and forth, I hope you 
find that that is a useful use of your time, because we really 
take seriously what you tell us and the need to move these 
ideas forward if we are going to be responsive to the 
taxpayers.
    Mr. Dodaro. I just want to say I really appreciate from 
GAO's perspective this hearing and the time and attention that 
you are giving to this subject. It is very important for our 
organization and our people to know that our work is valued and 
that we have this support. And there is no way that these 
recommendations will get implemented effectively without 
executive agency cooperation and congressional oversight.
    So it is imperative. We will dialogue with you as much as 
you want in order to make this a better government.
    Senator Lankford. Well, just for the American people, I 
would say from last year about $74 billion in thanks back to 
GAO and what they have done for the IG and for so much work 
that has been done to be able to protect the taxpayer and 
Federal employees and folks around the country.
    Thank you again. The hearing record will remain open until 
5 p.m., Monday, December 28, for anyone who over Christmas 
wants to be able to put together their submission statements 
and questions for the record. [Laughter.]
    With that, gentlemen, thank you very much. This hearing is 
adjourned.
    [Whereupon, at 11:47 a.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
